Audit Report




OIG-13-002
SAFETY AND SOUNDNESS: Failed Bank Review of Palm Desert
National Bank
October 11, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               October 11, 2012


            OIG-13-002

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Palm Desert National Bank, Palm Desert,
                                  California


            This memorandum presents the results of our review of the failure of Palm Desert
            National Bank (Palm Desert) located in Palm Desert, California. The bank was chartered
            in 1981 and was wholly owned by Palm Desert Investments, a one-bank holding
            company. The Office of the Comptroller of Currency (OCC) closed Palm Desert and
            appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on April 27,
            2012. As of December 31, 2011, Palm Desert had approximately $125.8 million in
            total assets. As of August 31, 2012, FDIC estimated the loss to the Deposit Insurance
            Fund at $23.4 million.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set forth
            by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a review of
            the failure of Palm Desert that was limited to (1) ascertaining the grounds identified by
            OCC for appointing the FDIC as receiver and (2) determining whether any unusual
            circumstances exist that might warrant a more in-depth review of the loss. In
            performing our review we (1) examined documentation related to the appointment of
            FDIC as receiver and (2) interviewed an OCC problem bank specialist. We performed our
            fieldwork from May to June 2012.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform the
            audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the evidence
            obtained provides a reasonable basis for our findings and conclusions based on our
            audit objectives.
OIG-13-002
Page 2

Causes of Palm Desert National Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank was in an unsafe or unsound condition to transact business;
(3) the bank had incurred or was likely to incur losses that would deplete all or
substantially all of its capital, and there was no reasonable prospect for it to become
adequately capitalized without federal assistance; (4) the bank’s unsafe or unsound
practices or condition were likely to seriously prejudice the interests of the Deposit
Insurance Fund; and (5) the bank was critically undercapitalized.

The primary cause of Palm Desert’s failure was its board of directors’ and
management’s implementation of a poorly timed and executed aggressive growth
strategy in commercial real estate (CRE) loans, including residential land acquisition and
construction and development loans, beginning in 2004. In 2007, the decline in the real
estate market exposed weaknesses in the bank’s credit administration and risk
management practices. Examples of the bank’s inadequate credit administration and risk
management included poor underwriting practices, the failure to support collateral
valuations, and an inadequate allowance for loan and lease losses methodology. The
board and management’s lack of oversight, failure to adjust to changing economic
conditions, and failure to address the bank’s excessive CRE concentrations, resulted in
an unsafe and unsound concentration in CRE loans. This led to excessive losses, high
levels of classified assets, erosion of capital through deficient earnings, and ultimately,
failure.

Conclusion
Based on our review of the causes of Palm Desert’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure that would necessitate an in-depth review.
We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Palm Desert’s
failure and that it had no concerns with our determination that an in-depth review of the
bank’s failure was not warranted. The response is provided as Attachment 1. A list of
the recipients of this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the audit. If
you have any questions, you may contact me at (202) 927-0384 or Theresa Cameron,
Audit Manager, at (202) 927-1011.

Attachments
         OIG-13-002

       Attachment 1
Management Response
                                                       OIG-13-002

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
